                                                                  Issue Date
                                                                       March 2, 2012
                                                                   
                                                                  Audit Report Number
                                                                       2012-KC-1002




TO:         Donald J. Lavoy, Deputy Assistant Secretary for Field Operations, PQ

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: The East St. Louis Housing Authority Did Not Properly Manage or Report on
         Recovery Act Capital Funds




                                    HIGHLIGHTS

 What We Audited and Why

             We selected the East St. Louis Housing Authority for an American Recovery and
             Reinvestment Act of 2009 Public Housing Capital Fund audit because it received
             the second largest amount of Recovery Act capital funds in the State of Illinois
             and because of its receivership status.

             We audited the Authority to determine whether it (1) complied with applicable
             procurement requirements and properly managed its Recovery Act contracts, (2)
             properly drew down and expended funds for eligible activities, and (3) properly
             reported its Recovery Act activities.


 What We Found

             The Authority did not (1) comply with applicable procurement requirements and
             properly manage its Recovery Act contracts, (2) properly draw down and expend
             funds for eligible activities, and (3) properly report its Recovery Act activities.
             Specifically, the Authority (1) improperly awarded Recovery Act-funded
             contracts, (2) improperly approved change orders, (3) did not enforce the fair



                                              1
           labor standards prevailing wage rate requirements in its contracts, (4) paid for a
           Recovery Act contract before receiving U.S. Department of Housing and Urban
           Development (HUD) approval to obligate or expend the funds, (5) improperly
           drew down all of its administrative fees, and (6) reported incomplete and
           inconsistent information on the number of jobs created and the amounts expended
           on Recovery Act contracts. As a result, the Authority used capital funds for
           unsupported and ineligible expenses and failed to ensure that all its contractors
           paid the appropriate wages, and its reported use of Recovery Act capital funds
           was not accurate.


What We Recommend

           We recommend that HUD require the Authority to (1) support that nearly $1.9
           million in Recovery Act contracts and change orders was granted at a reasonable
           cost and repay any amount determined to be unreasonable, (2) collect $46,922 in
           overpaid funds from its contractor and return these funds to the U.S. Treasury, (3)
           ensure that contractors make any required wage restitution, and (4) provide
           documentation to support all administration expenses incurred or repay $132,322
           to the U.S. Treasury for the unsupported expenses. In addition, HUD should
           require the Authority to correct the amounts reported in FederalReporting.gov and
           verify that its data entries meet Recovery Act reporting requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided the draft report to the Authority on February 8, 2012, and held an
           exit conference on February 14, 2012. The Authority provided its written
           response dated February 22, 2012 and generally disagreed with our audit findings.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report. The auditee also provided
           copies of supporting documentation that it referenced in its response. These
           supporting documents are available upon request.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                            4

Results of Audit
      Finding 1: The Authority Did Not Properly Award Recovery Act-Funded            5
                 Contracts

      Finding 2: The Authority Improperly Approved Change Orders for Recovery        10
                 Act Contracts

      Finding 3: The Authority Did Not Enforce the Fair Labor Standards Prevailing   13
                 Wage Rate Requirements in Its Contracts

      Finding 4: The Authority Paid for a Recovery Act Contract Before Receiving     16
                 HUD Approval To Obligate or Expend the Funds

      Finding 5: The Authority Improperly Drew Down All of Its Administrative Fees   18

      Finding 6: The Authority Reported Incomplete and Inconsistent Information on   20
                 the Number of Jobs Created and the Amounts Expended on Recovery
                 Act Contracts


Scope and Methodology                                                                23

Internal Controls                                                                    24


Appendixes
   A. Schedule of Questioned Costs                                                   26
   B. Auditee Comments and OIG’s Evaluation                                          27




                                            3
                     BACKGROUND AND OBJECTIVES

The East St. Louis Housing Authority provides housing to low-income families, the elderly, and
people with disabilities in St. Clair County, IL. It owns and operates approximately 2,000 units
of public housing within the city of East St. Louis. These units include nine family
developments, six highrise apartment buildings, and various single-family detached homes
known as scattered sites.

The Authority is one of seven public housing authorities under U.S. Department of Housing and
Urban Development (HUD) administrative receivership, and it has been under receivership since
1985. Administrative receivership is a process whereby HUD declares a public housing
authority in substantial default of its annual contributions contract and takes control of the
authority. For the Authority, a HUD representative who works in the Milwaukee Office of
Public Housing acts as the board. We are also conducting a separate audit of HUD’s receivership
over the Authority.

On February 17, 2009, the President signed the American Recovery and Reinvestment Act. The
Recovery Act provided an additional $4 billion to public housing agencies to carry out capital
and management activities, including the modernization and development of public housing.
The Recovery Act required that $3 billion of these funds be distributed as formula grants and the
remaining $1 billion be distributed through a competitive process. The Recovery Act required
public housing agencies to (1) obligate 100 percent of the funds within 1 year, (2) expend 60
percent of the funds within 2 years, and (3) expend 100 percent of the funds within 3 years of the
grant’s effective date. HUD’s Office of Public Housing administers these grant funds.

In March 2009, the Authority received a $4.9 million Public Housing Capital Fund Recovery Act
formula grant. It had obligated 100 percent of its grant funds and expended 74 percent as of
August 31, 2011. The Authority awarded 16 contracts using its Recovery Act funds. These
contracts were for work such as landscaping; installation of signs, speed bumps and parking lot
striping; sewer cleaning; exterior lighting; installation of new fire alarms; installation of new
boilers and hot water systems; and the complete renovation of one of its developments.

Our objectives were to determine whether the Authority (1) complied with applicable
procurement requirements and properly managed its Recovery Act contracts, (2) properly drew
down and expended funds for eligible activities, and (3) properly reported its Recovery Act
activities.




                                                4
                                 RESULTS OF AUDIT

Finding 1: The Authority Did Not Properly Award Recovery Act-
           Funded Contracts
The Authority did not properly award Recovery Act-funded contracts. This condition occurred
because Authority staff misunderstood the requirements. As a result, the Authority could not
show that more than $1.5 million of the contract amounts was reasonable.



 Improper Procurement Actions

              The Authority did not properly award Recovery Act-funded contracts. It

                 Did not always properly prepare independent cost estimates,
                 Did not always perform cost or price analyses,
                 Did not always verify the past performance of its contractors,
                 Did not always document that its contractors had not been barred from doing
                  business with the government in any way,  
                 Selected contractors that failed to submit Section 3 plans or submitted
                  deficient plans, and  
                 Did not ensure that a contractor properly fulfilled the minority participation
                  requirements. 
                   
                                                

                                                                                                          Debarment, suspension, 
                                                                                                          Past performance not 

                                                                                                          participation check not 




                                                                                                                                     Section 3 plan missing 
                                                                                Cost or price analysis 
                                                         estimate improperly 




                                                                                                            or limited denial of 
                                                          Independent cost 

                                                                                   not performed 




                                                                                                                                         or inadequate 
                                                
                                                                                                                documented
                                                              prepared




                                                                                                                  verified




                                                
                                                
                                                
                                         Recovery Act 
                                          obligation 
            Activity                       amount 
            Landscaping 1                    $134,003                                        x                x                                 
            Landscaping 2                    $244,000                                        x                x                                 
            Boiler & hot water heater        $469,950                                                         x           x                   x 
            Villa Griffin project          $1,992,908                                                         x                               x 
            Parking lots                     $472,500                                        x                x           x                   x 
            Door replacement                  $62,125               x                                         x           x                     
            Door lock replacement             $31,550                                                         x                                 
            Exterior lights                  $125,550                                                         x                                 
            Termite abatement                $271,410               x                                         x           x                     
            Relocation                        $20,828                                                                     x                     


                                                5
Fire panel replacement                $196,000    x    x      x       x           
Sewer cleaning                          $87,500                       x           
Architect                               $35,000               x       x           
Mold remediation1                       $73,600   x                               
Trash chutes                             $9,224               x                   
Miniblinds                            $190,000    x           x                   
Total                                $4,416,148   5    4     13       8         3 
   This contract is also included in finding 4.

  Independent Cost Estimates
  The Authority did not always properly prepare independent cost estimates before
  receiving bids or proposals as required by 24 CFR (Code of Federal Regulations)
  85.36 and its own policy. In certain instances, the independent cost estimate was
  prepared after the Authority received bids. In one case, the Authority prepared
  the independent cost estimate 16 days after it received the bids. In another
  instance, it used the price quote from the winning bidder as an independent cost
  estimate.

  Cost or Price Analysis
  The Authority did not always perform cost or price analyses before awarding
  Recovery Act contracts as required by 24 CFR 85.36 and HUD Handbook 7460.8,
  REV-2. HUD’s and its own procurement policies and procedures require it to
  perform a cost or price analysis before awarding Recovery Act contracts when
  competition is lacking. This analysis would have allowed the Authority to
  evaluate the reasonableness of proposed contract prices. The Authority did not
  complete a cost or price analysis for four contracts that had single bidders or two
  bidders.

  Contractor Past Performance
  The Authority did not always verify the past performance of its contractors before
  awarding Recovery Act contracts. HUD Handbook 7460.8, REV-2, requires the
  Authority to conduct research to determine that a prospective contractor is
  responsible and document the results in the procurement file. One such method is
  to contact past customers to determine the bidders’ quality of performance,
  including timeliness of delivery or completion, quality of work, and compliance
  with terms and conditions of the contract. The Authority did not always verify
  the past performance of its contractors, and in one instance, the listed author of a
  letter of recommendation later denied writing it.

  Debarment and Suspension Check
  The Authority did not always document that its contractors had not been debarred
  or suspended or barred in any way before awarding Recovery Act contracts as
  required by 24 CFR 85.35. Before a contact is awarded, the Authority is required
  to determine whether HUD has issued a limited denial of participation or a
  contractor has been debarred or suspended. In a number of instances, the
  Authority could not document that contractors were fully screened. It


                                           6
           documented either the limited denial of participation check or the debarment or
           suspension check, when both were required. In one instance, a contractor used
           subcontractors that the Authority was not aware of and had not screened before
           they worked on the contract. HUD Handbook 7460.8, REV-2, requires the
           Authority to obtain evidence from contractors that a check has occurred on each
           proposed subcontractor before the award is made or new subcontractors are
           allowed to participate in the contract. We verified that none of the contractors
           had been barred from doing business with the government in any way.

           Section 3 Plans
           The Authority selected three contractors that failed to submit Section 3 plans or
           submitted deficient plans. The Authority required all bidders to provide written
           plans with their bids showing their possible compliance with the requirements of
           Section 3 of the Housing and Urban Development Act of 1968, as amended, 12
           U.S.C. (United States Code) 1701u. The purpose of Section 3 is to ensure that
           employment and other economic opportunities generated by HUD assistance or
           HUD-assisted projects covered by Section 3 are, to the greatest extent feasible,
           directed to low- and very low-income persons, particularly persons who are
           recipients of HUD assistance for housing. The deficient plans did not display the
           contractors’ efforts in meeting the minimum numerical goals set forth in 24 CFR
           135.30.

           Minority Participation
           The Authority did not ensure that the contractor for the Villa Griffin project
           satisfied the mandatory minority business subcontractor participation
           requirements of the contract. The contractor was a partner with a minority-owned
           business in a Small Business Administration-approved 8(a) joint venture. The
           contractor listed this joint venture as a subcontractor to meet the minority
           participation requirements. The Authority required all bidders for this contract to
           use qualified minority businesses to perform subcontractor work for no less than
           25 percent of the total contract price. In addition, 24 CFR 85.36(e) requires the
           contractor to take all necessary affirmative steps to ensure that minority firms are
           used when possible. Shortly before the notice to proceed date, the contractor
           submitted identical employee lists for the contractor and the minority business
           subcontractor. Because the subcontractor had no employees of its own assigned
           to the contract, its work under any subcontract would be performed by employees
           of the contractor, a nonminority company. Further, some of the minority
           subcontractor’s work was subcontracted to other subcontractors. The Authority
           should have made additional inquiries to ensure that the contractor satisfied the
           purpose and intent of the minority participation requirements under the contract.

Requirements Misunderstood

           Authority staff did not understand all of the requirements for awarding contracts.
           Specifically, it did not realize that it was required to perform cost analyses when



                                            7
             competition was lacking. In addition, the Authority did not have detailed
             procedures for performing and documenting these items; it had only a general
             policy requiring them. Finally, Authority staff members lacked the appropriate
             procurement training as the Authority had little time for training new employees
             due to the time constraints for spending Recovery Act funds.


Contract Amounts Possibly
Unreasonable

             The Authority improperly awarded more than $1.5 million in contracts that the
             Authority could not show were reasonable since it did not perform all required
             contract cost and price analyses. The table below identifies the contracts in
             question.

                          Activity                     Contract amounts
                          Landscaping 1                          $134,003
                          Landscaping 2                          $244,000
                          Parking lots                           $472,500
                          Door replacement                        $62,125
                          Termite abatement                      $271,410
                          Fire panel replacement                 $196,000
                          Miniblinds                             $190,000
                          Total2                               $1,570,038
                      2
                       Total excludes the mold remediation contract, which is included in the schedule of
                      questioned costs for finding 4, to avoid double counting.


Conclusion

             The Authority awarded contracts without complying with Federal procurement
             requirements. These requirements include the performance of cost or price
             analyses and independent cost estimates, among other items. As a result, the
             Authority could not support that all contracts were awarded at a reasonable cost.
             It must ensure that all procurements meet Federal requirements.

Recommendations

             We recommend that the Deputy Assistant Secretary for Field Operations require
             the Authority to

             1A. Support that $1,570,038 in Recovery Act contracts awarded was granted at a
                 reasonable cost and repay the U.S. Treasury from non-Federal funds any
                 amount determined to be unreasonable.



                                                   8
1B. Obtain evidence documenting compliance with Section 3’s 10 percent
    numerical goal of $293,536 or demonstrate why compliance was not possible
    for the three contracts (totaling $2,935,358) with missing or deficient plans.

1C. Develop procedures to ensure that it performs and documents all required
    procurement actions.

1D. Provide its staff with procurement training.




                                 9
Finding 2: The Authority Improperly Approved Change Orders for
           Recovery Act Contracts
The Authority improperly approved change orders for Recovery Act contracts. This condition
occurred because the Authority had inadequate controls and was unaware of all requirements.
As a result, it improperly paid $351,702 on Recovery Act contracts.


 Improperly Approved Change
 Orders

              The Authority improperly approved change orders for Recovery Act contracts.
              Specifically, it

                 Did not always perform cost analyses before it approved change orders,
                 Included profit in delay costs, and
                 Increased a contract without processing a change order.

              Cost Analyses
              The Authority did not always perform cost analyses before it approved contract
              change orders. Regulations at 24 CFR 85.36 require a cost analysis for contract
              modifications or change orders unless price reasonableness can be established on
              the basis of a catalog or market price of a commercial product sold in substantial
              quantities to the general public or based on prices set by law or regulation. The
              Authority’s procurement policy also requires a cost analysis for contract
              modifications.

              Some of these change orders included profit in addition to the profit charged by
              the subcontractor. Clause 29 of form HUD-5370 states that the contractor must
              not be allowed a profit on the profit received by any subcontractor. A cost
              analysis would have identified components of the change order that were not
              allowable, allocable, or reasonable, such as these profit costs.

              Change Order Profit
              The Authority improperly paid for construction delays by including profit in the
              computation. Clause 30 of form HUD-5370 prohibits the Authority from
              initiating change orders that pay profit when the contract is delayed. The
              Authority processed two change orders for extended general conditions due to
              project delays that it caused. One of the change orders was for $87,373, and the
              other was for $38,606. These change orders included $11,228 ($7,787 + $3,441)
              in unallowable profit and overhead. In addition, the same contract had a line item
              for lime stabilization but when this work was removed from the scope of work
              and the contractor removed the funds allocated to this activity from his contract
              price, he did not remove the $35,694 in profit related to the deleted work. Clause
              29 of form HUD-5370 states that in the case of deleted work, the change order
              must include a credit for profit and may include a credit for indirect costs. The


                                              10
           profit on the work not done should have been returned to the Authority and not
           kept by the contractor.

           Missing Change Order
           The Authority increased a contract amount without processing a change order.
           Clause 28 of form HUD-5370 states that any contract modification must be
           authorized in writing. The Authority granted an architectural services contract
           that was not to exceed $340,000, but as of June 27, 2011, it had paid $360,902 (an
           increase of $20,902) without processing a written change order.


Inadequate Supervision and
Awareness of Requirements

           The Authority did not properly supervise staff to ensure that change orders were
           processed when required. In addition, its staff members did not realize that they
           were required to conduct cost analyses for every change order processed as they
           often accepted the prices quoted by the contractors. Finally, staff members did
           not have much experience in managing construction contracts and were not aware
           of all requirements.


Change Orders Totaling
$351,702 Possibly Unreasonable

           The Authority improperly paid $351,702 on Recovery Act contracts. This
           amount included $46,922 improperly spent on profit for change orders. In
           addition, since it did not perform all the required contract cost and price analyses
           and properly modify and document change orders, the Authority could not show
           that changes totaling $304,780 were reasonable. A listing of the unsupported
           changes by contract is in the table below.

              Activity                                Changes processed
              Landscaping                                   $175,678  
              Parking lot                                     $42,053  
              Villa Griffin development                      $55,958  
              Miniblinds                                        $172
              Exterior doors                                  $10,017  
              Architect                                       $20,902  
   
              Total                                         $304,780  




                                            11
Conclusion

             The Authority improperly approved change orders for Recovery Act contracts. It
             must collect all overpaid funds, strengthen its controls, and train its staff. These
             measures will ensure that the situation described above does not recur.

Recommendations

             We recommend that the Deputy Assistant Secretary for Field Operations require
             the Authority to

             2A. Collect $46,922 in overpaid funds from the contractor and return these funds
                 to the U.S. Treasury.

             2B. Support that $304,780 in Recovery Act change orders was provided at a
                 reasonable cost and repay any amount determined to be unreasonable from
                 non-Federal funds to the U.S. Treasury.

             2C. Develop controls to ensure that its staff is adequately supervised.

             2D. Provide its employees with contract management training.




                                              12
Finding 3: The Authority Did Not Enforce the Fair Labor Standards
           Prevailing Wage Rate Requirements in Its Contracts
The Authority did not enforce the fair labor standards prevailing wage rate requirements in its
contracts. This condition occurred because the Authority did not have adequate controls. As a
result, contractor employees did not always receive their appropriate wages.


 Inadequate Enforcement of
 Prevailing Wages

               The Authority did not enforce the fair labor standards prevailing wage rate
               requirements in all of its contracts that were subject to these requirements.
               Section 1606 of the Recovery Act states that all laborers and mechanics employed
               by contractors and subcontractors on Recovery Act-funded projects must be paid
               prevailing wage rates. The Authority granted 11 contracts that were subject to the
               prevailing wage rates with a total value of more than $4 million. HUD Handbook
               1344.1, REV-1, requires public housing agencies to monitor enforcement of labor
               standards for the payment of prevailing wage rates in contracts over $2,000
               involving Federal funds. The amounts awarded for the contracts ranged from
               $20,000 to more than $1.9 million. The Authority did not (1) always verify
               wages and fringe benefits, (2) always verify that payroll reports were accurate, (3)
               always receive payroll reports in a timely manner, and (4) withhold payments for
               late payroll reports.

                                            
                                                         Indications that proper 




                                                                                                            Late or missing payroll 
                                            
                                                                                    Inaccurate certified 
                                                            benefits not paid 
                                                            wages and fringe 


                                                                                      payroll records 




                                            
                                            
                                                                                                                    records 


                                            
                                            
                                            
                                            
                                       Contract 
                          Landscaping 1                            x                         x                        x 
                          Landscaping 2                            x                         x                        x 
                          Boiler and hot water heater                                                                 x 
                          Villa Griffin project                                              x                         
                          Parking lots                             x                         x                        x 
                          Exterior lights                                                    x                        x 
                          Termite abatement                        x                                                   
                          Relocation                               x                                                   
                          Fire panel replacement                   x                         x                        x 
                          Sewer cleaning                           x                                                   
                          Mold remediation                         x                                                  x 
                                                                   8                         6                        7 


                                                13
           Wages and Fringe Benefits
           The Authority did not always verify that its contractors paid Davis-Bacon wages and
           related acts and fringe benefits to their employees although it had indications that the
           wages were not being paid. In some instances, the Authority noted on its employee
           interview records that the employees reported wages or fringe benefits that were
           below the appropriate amount. HUD Handbook 7460.8, REV-2, paragraph 10-
           9(E)(3), requires housing authorities to review the certified payroll reports submitted
           by the contractor and subcontractors to ensure that all laborers and mechanics are
           classified and paid in accordance with the applicable wage determination and to
           compare information collected during onsite interviews to ensure consistency with
           interview data.

           Inaccurate Certified Payroll Records
           The Authority did not always verify that the certified payroll reports received
           from its contractors were accurate, although they sometimes contradicted the
           Authority’s inspection reports. In these instances, the Authority noted that certain
           employees worked on certain days, but the certified payroll records from the
           contractors did not list those employees as working on the same days.

           Late or Missing Certified Payroll Records
           The Authority did not always receive certified payroll reports from its contractors
           in a timely manner, if at all. Regulations at 29 CFR 5.5(a)(3)(ii)(A) require the
           contractor to submit weekly, for each week in which any contract work is
           performed, a copy of all payrolls. It also requires that the payroll records be
           accurate and complete. In one case, the payroll records were submitted by the
           contractor 2 months late. In another case, the contractor did not submit any of the
           payroll records of its subcontractors, and the Authority did not document steps
           taken to obtain the payroll records.

           Lack of Enforcement
           The Authority did not withhold payments from contractors that failed to provide
           timely certified payroll reports. HUD Handbook 1344.1, REV-1, paragraph 5-
           1(c) allows the Authority to suspend contract payments until the violation of
           Davis-Bacon and related acts ends or until sufficient funds are withheld to
           compensate employees for the wages to which they are entitled.

Inadequate Controls


           The Authority lacked policies and procedures requiring it to compare the staff
           field inspection reports with the certified payroll records and ensure that all
           contractors paid the appropriate wages. In addition, Authority staff was not
           adequately supervised to ensure that it followed up on all indications of
           noncompliance with Davis-Bacon and related acts.




                                             14
Appropriate Wages Not Paid


             Contractor employees did not always receive their appropriate wages. Due to the
             inaccurate and incomplete records retained by the Authority, we were unable to
             calculate the actual underpayment of wages and fringe benefits.


Conclusion

             The Authority did not enforce the fair labor standards prevailing wage rate
             requirements in its contracts. It did not always ensure that workers were paid
             their proper wages and benefits, receive and verify all payroll records, or impose
             penalties when warranted. HUD Handbook 7460.8, REV-2, paragraph 10-
             9(E)(3), requires that any discrepancies in payroll records found be corrected and
             wage restitution be required wherever underpayments are disclosed. The
             Authority must ensure that it remedies this situation.

Recommendations

             We recommend that the Deputy Assistant Secretary for Field Operations

             3A. Require the Authority to review all payments to its contractors’ employees to
                 determine whether wage restitution is owed and provide the review results to
                 HUD for review and approval. If wage restitution is required, ensure the
                 contractors make the restitution.

             3B. Require the Authority to develop and implement adequate written
                 procedures, controls, and supervision to ensure that its contractors’
                 employees are paid at the appropriate Federal prevailing wage rates. These
                 measures would include but not be limited to reviewing contractors’ weekly
                 certified payrolls, comparing the weekly certified payrolls with the field
                 inspection reports, maintaining full documentation such as weekly payrolls
                 and copies of wage determinations, penalizing contractors that violate fair
                 labor standards, and making any applicable changes or modifications needed
                 to comply with the Davis-Bacon and related acts.




                                             15
Finding 4: The Authority Paid for a Recovery Act Contract Before
Receiving HUD Approval To Obligate or Expend the Funds
The Authority paid for a Recovery Act contract before receiving HUD approval to obligate or
expend the funds. This condition occurred because the Authority misunderstood the
requirements. As a result, it paid the contractor and tenants $74,425 before receiving HUD
approval to obligate or expend the funds.


 Improperly Executed Contracts


              The Authority awarded a mold remediation contract for $73,600 in January 2011
              without obtaining HUD obligation approval. It sought HUD approval to solicit
              for quotes on October 28, 2011, when the contract had been completed as of May
              18, 2011, according to the certificate of completion.

              According to the obligation submission approval requirements for troubled public
              housing authorities provided to the Authority by HUD, before obligation, all
              award documents must be submitted to the field office for review and approval.
              HUD requirements also state that the field office must review the Authority’s
              determination of the successful respondents before the Authority may award the
              contract. In its obligation request, the Authority sought HUD’s approval to solicit
              for contractors but did not inform HUD that it had already awarded the contract
              and granted the notice to proceed. In addition it did not seek HUD approval to
              expend the funds.

              Additionally, the Authority used relocation activity funds to reimburse tenant
              moving expenses when the activity amount obligated was only meant to pay for
              the company that was contracted to relocate the tenants. The Authority did not
              seek HUD approval to directly reimburse these tenants with Recovery Act funds.


 Requirements Misunderstood

              The Authority did not realize that it was barred from spending funds on Recovery
              Act contracts until it received HUD approval. Additionally, it did not realize that
              since it is in receivership, all Recovery Act Capital Fund grants were to be
              manually reviewed by HUD and that its board approval was required for all
              Recovery Act contracts before they were awarded. Authority staff members also
              noted that they thought that reimbursing tenant moving expenses was allowable
              because the line item was an allowable Recovery Act expense.




                                               16
Contractors Paid $73,600
Before HUD Approval

           The Authority paid the contractor $73,600 before receiving HUD approval to
           obligate or expend the funds. In addition, it was not entitled to receive
           reimbursement for $825 in non-Recovery Act funds expended on improperly paid
           tenant moving expenses.


Recommendations


           We recommend that the Deputy Assistant Secretary for Field Operations

           4A. Require the Authority to provide documentation supporting that it received
               HUD approval for the mold remediation contract, or require repayment of
               $73,600 to the U.S. Treasury.

           4B. Require the Authority to repay $825 to the U.S. Treasury for the improperly
               paid tenant moving expenses.

           4C. Provide training to the Authority’s staff.




                                           17
Finding 5: The Authority Improperly Drew Down All of Its
           Administrative Fees
The Authority drew down all of its administrative fees totaling $434,883, when it was only
entitled to draw down a total of $302,561. This condition occurred because its staff
misunderstood the requirements. As a result, the Authority overdrew its administrative fees by
$132,322 without the required support and possibly received administrative fees to which it was
not entitled.


 Administrative Fees Drawn
 Before Earned

              As of May 27, 2011, the Authority had drawn down $434,883 in administrative
              expenses (a total of $154,972 drawn before May 27, 2011, and $279,911
              requested on May 27, 2011). However, the Authority was only entitled to draw
              down $302,561 because it did not provide support showing that it had already
              incurred $434,883 in administrative expenses.

              In the initial budget, HUD had approved the Authority’s request to use up to
              $434,883 in administrative fees to administer its Recovery Act Capital Fund
              program. However, PIH Notice 2011-04 allows housing authorities to draw only
              up to 10 percent of each contractor payment for administration of the Recovery
              Act grant or with field office approval, to draw beyond 10 percent of the
              expenditure if it demonstrates that it has already incurred the administrative
              expense. Since the Authority had drawn down only slightly more than $3 million
              in contractor payments as of May 27, 2011, it was entitled to have drawn down
              only $302,561 (10 percent) in administrative expenses.

 Requirements Misunderstood

              Staff erroneously relied on PIH Notice 2010-34 to draw the remaining balance of
              the Authority’s administrative fee and did not realize that the notice applied only
              to competitive Capital Fund grants, while the Authority had a formula capital
              fund grant. The Authority failed to rely on PIH Notice 2011-04, which is
              specifically for formula grants, when it initiated the drawdown of funds from
              HUD.

              Staff members erroneously believed that the PIH notices allowed them to draw
              administrative fees based on the actual administrative expenses incurred plus a
              percentage of the amounts paid to the Authority’s contractors. They believed that
              since they did not draw beyond 10 percent of the grant amount as specified by
              PIH Notice 2011-04, they could draw the remaining balance. In addition, they
              believed that since HUD approved the drawdown of funds, it must have agreed
              that the Authority was eligible to draw the entire administrative fee amount.


                                               18
Unsupported Fees Received

             The Authority overdrew its administrative fees by $132,322 without the required
             support. If it does not spend all of its Recovery Act funds, it will have received
             administrative fees to which it was not entitled.

Conclusion

             The Authority inappropriately drew down all of its administrative fees because it
             misunderstood the requirements. It needs to properly train its staff to ensure that
             administrative fees are drawn only when allowable and repay any portion that is
             unallowable.

Recommendations

             We recommend that the Deputy Assistant Secretary for Field Operations require
             the Authority to

             5A. Provide documentation to support excess administrative fees received or
                 repay $132,322 to the U.S. Treasury for the unsupported expenses.

             5B. Provide its employees with training related to the drawing of administrative
                 fees.




                                              19
Finding 6: The Authority Reported Incomplete and Inconsistent
           Information on the Number of Jobs Created and the Amounts
           Expended on Recovery Act Contracts
The Authority reported incomplete and inconsistent information on the number of jobs created
and the amounts expended on Recovery Act contracts. This deficiency occurred because the
Authority was not aware of all requirements. As a result, the public did not have access to
accurate grant information related to the Authority’s expenditures of Recovery Act capital funds,
and its use of Recovery Act capital funds was not transparent.


 Incomplete and Inconsistent
 Information Reported

              The Authority reported incomplete and inconsistent information on the number of
              jobs created and the amounts expended on Recovery Act contracts. According to
              the Recovery Act reporting requirements in 2 CFR Part 176 and section 1512(c)
              of the Recovery Act, Recovery Act grant recipients are required to report the
              following information in FederalReporting.gov:

                     Amount of the Recovery Act grant award,
                     Project information for use of the grant funds,
                     Number of jobs created or retained with the Recovery Act grant,
                     Grant funds invoiced and received,
                     Expenditure amounts,
                     Listing of vendors receiving Recovery Act funds, and
                     Vendor transactions and payments.

              Jobs Inaccurately Reported
              The Authority did not accurately report the number of jobs created or retained. It
              did not use staff hours to calculate full-time job equivalents but based them on the
              number of workers employed. The Recovery Act requires full-time-equivalent
              jobs to be calculated using staff hours worked per quarter. Additionally, the
              Authority did not report jobs created by its contractors or force account labor. In
              its Section 3 reporting to HUD for 2010, it listed 15 jobs created but did not list
              more than three jobs created in any of the quarterly submissions to
              FederalReporting.gov. It also reported to FederalReporting.gov that the only jobs
              created were those of a contract administrator, construction inspector, and
              financial analyst, while it reported professional, office and clerical worker,
              construction worker, inspector, union carpenter, and laborer jobs created in its
              Section 3 report to HUD.

              Vendor Expenditures Improperly Reported
              The Authority did not properly report on the expenditures made to each of its
              vendors. It reported on the total amount awarded to each vendor but did not


                                               20
           report on the disbursement progress of each vendor. Through the first quarter of
           2010, the Authority reported $0 disbursed to its vendors. From the second quarter
           of 2010 until the second quarter of 2011, the Authority reported that it disbursed
           the full contract amount to each of its vendors.

           Funds Received Improperly Reported
           The Authority did not accurately report the total amount of Recovery Act funds
           received. It did not properly report the amount of funds received for two quarters
           in 2010. The following table lists the amounts received as reported in
           FederalReporting.gov, the actual amounts received, and the difference between
           the two numbers.

                                Recovery Act capital funds received
            Ending date
            for reporting   Reported        Actual amount
            period          amount received received          Difference
                  9/30/2009              $0                $0                $0
                 12/31/2009              $0                $0                $0
                  3/31/2010              $0                $0                $0
                  6/30/2010        $574,216          $574,216                $0
                  9/30/2010      $4,948,702        $1,213,909        $3,734,793
                 12/31/2010      $4,948,702        $2,607,441        $2,341,261
                  3/31/2011      $3,025,008        $3,025,008                $0
                  6/30/2011      $3,517,755        $3,517,755                $0


 Staff Unaware of Requirements

           The Authority’s staff members did not realize that they were required to report the
           jobs created by the contractors as well as those created by employing force
           account labor. In addition, they were not aware that they were required to use
           staff hours to calculate full-time job equivalents. Once the quarterly reports were
           due, the employee tasked with reporting Recovery Act information requested
           information from different departments within the Authority and reported the
           information as she received it. In addition, this employee did not know how to
           report Recovery Act funds paid to contractors quarterly, as she used only the Web
           site interface of FederalReporting.gov and did not know how to upload the
           information into an Excel file.

Loss of Transparency

           The public did not have access to accurate grant information related to the
           Authority’s expenditures of Recovery Act capital funds. In addition, the public
           did not have information pertaining to the projects and activities funded with


                                           21
             Recovery Act grant funds. As a result, the Authority’s use of Recovery Act
             capital funds was not transparent.

Conclusion

             The Recovery Act required an unprecedented level of transparency, and the
             Authority failed to provide the public with reliable information. Its employees
             need to be trained so that they can report information accurately.

Recommendations

             We recommend that the Deputy Assistant Secretary for Field Operations

             6A. Require the Authority to correct the amounts reported in Federal
                 Reporting.gov and verify the Authority’s data entries to ensure that they
                 meet Recovery Act reporting requirements

             6B. Assist the Authority in receiving training on how to accurately report
                 required Recovery Act grant information in FederalReporting.gov.




                                             22
                         SCOPE AND METHODOLOGY
To accomplish our objectives, we performed the following steps as they related to the
Authority’s Recovery Act Public Housing Capital Fund formula grant:

      Reviewed relevant laws, regulations, and HUD guidance.  

      Reviewed the Authority’s Recovery Act Public Housing Capital Fund formula grant
       agreement, budget, procurement policies, change order and contract modification policy
       and procedure, and relocation plan. 

      Reviewed Recovery Act reporting documents and reports submitted to
       FederalReporting.gov. 

      Interviewed Authority and HUD staff. 

We reviewed the Authority’s entire Recovery Act grant totaling nearly $4.9 million. The grant
was used to fund 16 contracts, 3 force account labor activities, and the Authority’s administrative
fee. We reviewed each of the contract files, including the advertisement; independent cost
estimate; solicitation; bid documents; debarment, suspension, and limited denial of participation
verifications; references; recommendation for award; notice of award; notice to proceed;
contract; and buy American certifications. We also reviewed obligation submission approval
requirements and expenditure submission approval requirements documents, change orders, cost
or price analyses, inspection reports, and certificates of substantial completion. Additionally, we
reviewed staff field reports, employee interviews, certified payroll records, timesheets, and other
documents to determine whether the Authority enforced fair labor standards.

We identified four contracts that the Authority awarded before receiving the obligation
submission approval requirements approval from HUD. For these contracts, we reviewed the
invoices and the draw requests.

We did not use computer-generated data to support our audit conclusions. We compared the
source documentation maintained in the Authority’s files to data reported in HUD’s Line of
Credit Control System and FederalReporting.gov. All conclusions were based on source
documentation reviewed during the audit.

We performed our audit between September 2011 and January 2012 at the Authority’s office at
700 North 20th Street, East St. Louis, IL. Our audit generally covered the period September 1,
2009, through August 31, 2011.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.



                                                23
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

                     Policies and procedures to ensure that the Authority complied with
                      applicable procurement requirements when awarding Recovery Act
                      contracts.

                     Policies and procedures to ensure that the Authority properly drew down
                      and expended Recovery Act capital funds for eligible activities.

                     Policies and procedures to ensure that the Authority properly and
                      accurately reported its Recovery Act activities to the public.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:


                                                 24
   The Authority did not have adequate controls to properly award and
    manage Recovery Act-funded contracts (see findings 1 and 2).

   The Authority did not have adequate controls to enforce fair labor
    standards prevailing wage rate requirements in its contracts (see finding
    3).

   The Authority did not have adequate controls to properly draw down and
    expend Recovery Act funds (see findings 4 and 5).

   The Authority did not have adequate controls to properly report
    information on the number of jobs it created and the amounts expended on
    Recovery Act contracts (see finding 6).




                             25
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                  Recommendation           Ineligible 1/    Unsupported 2/
                      number
                                 1A                            $1,570,038
                                 1B                              $293,536
                                 2A               $46,922
                                 2B                              $304,780
                                 4A                               $73,600
                                 4B                 $825
                                 5A                              $132,322
                                                  $47,747      $2,374,276



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             26
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION



Ref to OIG Evaluation                           Auditee Comments




                                                   th
                Contracts Department* 700 North 20 Street*East St. Louis, IL 62205 618.646.7100 TDD
             800.545.1833 ext. 471




             February 22, 2012

             U.S. Department of Housing and Urban Development
             Office of Inspector General
             Region vii Office of Audit
             Gateway Tower II-5th Floor
             400 State Avenue
             Kansas City, Kansas 66101-2406

             RE: Response to the Audit Report dated February 8, 2012 The East St. Louis Housing
             Authority Did Not Properly Manage or Report on Recovery Act Capital Funds

              Dear Mr. Ronald J. Hosking:

                      Please accept this written response to the Draft Audit Report provided to us by Office
             of Inspector General (OIG) dated February 8, 2012. The HA worked diligently to insure all
             ARRA Funds were properly used and managed. The ELSHA takes audits very seriously and
             would like to express our appreciation for allowing us to respond to your recommendations.

             Finding 1

             The Authority did not properly award Recovery Act-funded contracts.
             Specifically:
                       The Authority did not always properly prepare independent cost estimates as
                           required by 24 CFR 85.36 and HUD Handbook 7460.8 Rev-2
             Management Response:

             Management does not concur. An overview of each contract was performed to assure pre-
Comment 1    procurement was satisfied. The HA records indicate that independent cost estimates (ICE)
             were performed for each procurement. Per Handbook No. 7460.8 Page 3-2 paragraph D. “The
             level of detail will depend upon the dollar value of the proposed contract and the nature of the
             goods or services to be acquired. The ICE must be prepared prior to the solicitation of offers”
             The following contracts were detailed in the audit report:




                                                   27
Ref to OIG Evaluation                          Auditee Comments


Comment 2            o    Door Replacement- ICE was performed on 12/16/2009 contract resolution on
                          02/24/2010 (see attachments that was submitted to HUD Field Office)

Comment 3            o    Termite Abatement- ICE was performed on 06/01/2009 contract resolution on
                          09/11/2009 (see attachments that was submitted to HUD Field Office)

                     o    Fire Panel Replacement- ICE was submitted to our Field Office on 01/26/2010
Comment 4                 which would indicate that the HA in fact had a ICE prior to contract award and
                          contract resolution on 02/24/2010 (see attachments that was submitted to HUD
                          Field Office)

                     o    Mold Remediation- ICE was submitted to our Field Office on 10/28/2010 which
Comment 5                 would indicate that the HA in fact had a ICE prior to contract award and
                          contract resolution on 01/20/2011 (see attachments that was submitted to HUD
                          Field Office)

                     o    Miniblinds- ICE was performed on 12/16/2009 contract resolution on
Comment 6                 02/24/2010 (see attachments that was submitted to HUD Field Office)

                          The HA did not find that any independent cost estimates performed after the
                          Authority received bid, nor did the Authority find an ICE performed 26 days after
                          it received bids. The above bullets details when the ICE was either prepared or
Comment 7
                          submitted to HUD, along with the contract award. It should be noted these files
                          have been reviewed numerous times and certain information could have been
                          unorganized at the time of the review.

                         The Authority did not always perform cost or price analysis prior to awarding
                          recovery act contracts as required by 24 CFR 85.36 and HUD Handbook 7460.8
                          Rev-2.

             Managements Response:

             Management does not concur. Handbook No 7460.8 Rev 2 page 3-2 paragraph E., states, “If a
Comment 8    significant period of time has elapsed, or the PHA knows that certain market conditions have
             changed, the Contracting Officer should request that an updated ICE be prepared to




                                                  28
Ref to OIG Evaluation                          Auditee Comments


             use in evaluating offers.” HUD did not identify in its handbook No 7460.8 what would be
             considered a significant period of time. Management does not consider one – two months a
             significant period of time. Furthermore, market conditions had not changed and did not
             warrant and updated ICE. In addition, 24 CFR 85.36 do not address cost and price analysis
             after bid offers have been received and therefore should not be reference as sources to support
             OIG finding.


                         The Authority did not always verify the past performance of its contractors prior
                          to awarding recovery act contracts as required by HUD Handbook 7460.8 Rev-2.

             Managment Response:

             Management does not concur. HA met this requirement based on past contracts awarded to
             the contracts in question. Handbook No 7460.8 REV 2 states “Require offerors to submit
             contact information for recent contracts they have performed for other customers and contact
Comment 9    them to ascertain the offerors quality of performance.” Each contractor provided contact
             information for recent contracts that they have performed including reference letters. The HA
             had firsthand experience with the contractors and determined that past quality of
             performance, including timeliness of delivery/completion, quality of work, complied with
             terms and conditions of past contracts and cost control. Therefore, HA did not pursue further
             verification from other customers of the contractors.

                 o    Landscaping- XXXXXXXXXX has performed services with the HA since 2005.

                 o    Boiler and Hot Water- XXXXXX. has performed services since 2006

                 o    Termite abatement- XXXXXXXXX has performed services since 2005

                 o    Villa Griffin- XXXXXXXXXXX performed rehab work for the HA on our John
                      DeShields Homes during the 90’s.


             The Authority did not always document that its contractors were not debarred or suspended or
             barred in any way prior to awarding recovery act contracts as required by 24 CFR 85.36.




                                                  29
Ref to OIG Evaluation                          Auditee Comments


             Managments Response:

             Management does not concur. OIG has reference 24.CFR.85.36 to support this finding. After
             reviewing the CFR management found that this reference did not support this finding.
Comment 10   However, 85.35 addresses debarred or suspension.

             § 85.36 Procurement.
             (a) States. When procuring property and services under a grant, a State will follow the same
             policies and procedures it uses for procurements from its non-Federal funds. The State will
             ensure that every purchase order or other contract includes any clauses required by Federal
             statutes and executive orders and their implementing regulations. Other grantees and
             subgrantees will follow paragraphs (b) through (I) in this section.

              § 85.35 Subawards to debarred and suspended parties.
             Grantees and subgrantees must not make any award or permit any award (subgrant or contract)
             at any tier to any party which is debarred or suspended or is otherwise excluded from or
             ineligible for participation in Federal assistance programs under Executive Order 12549,
             “Debarment and Suspension

             “The Authority documented that each contractor was not debarred or suspended utilizing LDP
             as required per HUD Handbook 7460.8 REV 2. HUD Handbook 7460.8 REV 2 also, states,
             “PHAs should determine whether contractors have been restricted from participation in HUD
Comment 11   or Government Services Administration (GSA) contracts”. The HA did check if HUD had
             issued an LDP or if the contractors had been debarred or suspended. The HA has a detail
             print listing from the U.S. Department of Housing and Urban Development, Limited Denial of
             Participation as of 02/11/2010. Note that over 50% of our contracts were awarded in
             February 2010 (see attached listing dated 02/11/2010. The Authority will continue to check
             before contracts are awarded both LDP, GSA and State agencies regarding debarred or
             suspended contractors.



                         The Authority selected contractors who failed to submit Section 3 plans or
                          submitted deficient plans.




                                                  30
Ref to OIG Evaluation                              Auditee Comments


                 Managments Response:

                 Management does not concur. Two out of the three contractors were able to comply:
Comment 12 Management reviewed the contractors file for the Parking lot improvement. It was noted that
                 the actual plan was missing from the file, however it should be documented that the contractor
                 was in compliance by utilizing Section 3 workers, as documented in meeting minutes. The
                 contractor for Villa Griffin did submit a Section 3 plan that was deemed by OIG as a deficient
                 plan, however the HA is taking necessary measures with this contractor to bring the plan up to
                 date as we are still under construction with such contractor, and do not see a problem with
                 meeting the goal.

                             The Authority did not ensure a contractor properly fulfilled the minority
                              participation requirements.

                 Managements Response:

                 The Management do not concur, the contractor submitted a detailed listing of how they would
Comment 13 satisfy the 25 percent goal which is what the HA approved. The contractor listed a joint
                 venture as a subcontractor to meet the minority participation requirements”. As documented
                 in the HA records XXXXXXX fulfilled their 25 percent MBE/WBE requirements in the amount
                 of $ 745,502 through the following sub-contracts:

                      o   Carpentry sub-contract to MBE in the amount of $574,555

                      o   Plumbing sub-contract to MBE in the amount of $111,300

                      o   Roofing sub-contract to MBE in the amount of $35,010

                      o   Flooring sub-contract to MBE in the amount of $24,637




                                                      31
Ref to OIG Evaluation                          Auditee Comments


                 Recommendations

                 We recommend that the Deputy Assistant Secretary for Field Operations require the
                 Authority to:

                 1A. Provide support that $1,580,056 in Recovery Act contracts awarded were at a
                 reasonable cost, and repay any amount determined to be unreasonable.

                 Managments Response:

                 The Authority have attached all supporting documentation, particularly copies of all
Comment 14
                 OSAR’s that was submitted and approved by HUD that all contracts awarded were
                 reasonable in cost.

                 1B. Obtain evidence documenting compliance with Section 3’s ten percent numerical goal
                 ($293,536), or demonstrate why compliance was not possible, for the three contracts
                 totaling $2,935,358 with missing or deficient plans.

                 Managements Response:

                 As documented in the HA records Section 3 compliance exceeded its ten percent
Comment 15       numerical goal.

                 1C. Develop procedures to ensure that it performs and documents all required
                 procurement actions.

                 Managments Response:

                 The Authority updated its Procurements Policies and Procedures to cover the Recovery
                 Act Contracts in April 2009. Management will require all staff involved in the contracting
                 office to review our Procedures to assure we have incorporated all required procurement
                 actions.

                 1D. Provide its staff with procurement training

                 Managements Response:

                 Procurement training has been provided to key staff involved with the contracts
                 procurement. In addition, the Authority relies on HUD guidance through PIH Notices,
                 24CFR’s, HUD handbook and guide books. We can assure you the Authority takes pride
                 in its integrity




                                                  32
Ref to OIG Evaluation                            Auditee Comments


                 and its ability to provide complete and intelligent data to our Board, HUD and other local
                 and federal agencies. Staff is kept abreast with new requirements through printed
                 publications, on-site training and HUD webcast.

             Finding 2

             The Authority improperly approved change orders for Recovery Act contracts.

             Specifically:

                                The Authority did not perform cost analysis before it approved change
                                 orders.

             Managment Response:

             Management agrees that it paid the contractor profit for the construction delays. During such
             time staff pointed out to OIG that the contractor can be paid overhead cost however they
             should not be paid profit. The Authority would like to request further guidance on these
             regulations so the Authority can incorporate into its procurement procedures the correct
             administration of when the profit for the construction should be paid.

                                The Authority increased contract amounts without processing change orders.

             Managements Response:


             During the course of this engagement with administering the ARRA funds the Authority has
             undergone countless reviews. In the review processes several individuals have handled our
Comment 16   contract records causing documented items to become disorganized and difficult to locate.
             The Authority has been unable to locate the original change order for Architectural service
             contract. Please note that the information that OIG is referring to is a contract summary
             sheet, it details specific tasks and estimated task orders. At no time has the HA awarded an
             actual contract in the amount of $425,292. As of today the HA has only expensed $360,927 to
             the current contractor. The Authority disagrees with the amount in which OIG is referring, an
             increase of ($85,292) when the ARRAS budget only reflects ($35,000).




                                                    33
Ref to OIG Evaluation                             Auditee Comments


             The Authority would also like to request additional clarification on what represents $416,092
             improperly spent on recovery act contracts. Our records indicated the following:

Comment 17                                          Activity        ARRA Change
                                                                       orders
                                                  Landscaping           8,618
                                                  Parking Lots         14,838
                                                  Villa Griffin        55,958
                                                   Miniblinds             0
                                                    Exterior           10,017
                                                     Doors
                                                   Architect             35,000

                                                     Total              124,431

             Finding 3

             The Authority did not enforce the Fair Labor Standards prevailing wage rate requirements in
             its contracts

             Specifically:

                                The Authority did not always verify that its contractors paid Davis-Bacon
                                 wages and fringe benefits to their employees even though it had indications
                                 that the wages were not being paid.

                                The Authority did not always verify that the certified payroll reports
                                 received from its contractors were accurate even though they sometimes
                                 contradicted the Authority’s inspector’s reports.

                                The Authority did not always receive certified payroll reports from its
                                 contractors in a timely manner, if received at all.

                                The Authority did not withhold payments from contractors that failed to
                                 provide timely certified payroll reports.

             Managments Response:

                 This is a potential problem because the housing authority inspector who conducted
             majority of the HUD 11 interviews indicated that many of the employees do not know how
             much they make an hour, so they guessed at their rates.




                                                     34
Ref to OIG Evaluation                         Auditee Comments


Comment 18          Landscaping 1* 2

                         o   The certified payrolls that the HA received did in fact show that the
                             employees were not paid their fringe benefits, the contractor was not aware
                             that the fringe along with the hourly wage must be shown on the certified
                             payroll. While OIG was reviewing the records the HA provided proof that
                             the fringes were paid. The contractor submitted a copy of their ADP report
                             that provided proof those fringes was paid.


Comment 19          Boiler and hot water heater- All payrolls are present. Some payrolls were received
                     later than a week.

                    Villa Griffin Project-)
Comment 20
                          o ESLHA collected restitution when an employee was not paid the proper
                              wage rate. (See attached letter and cancelled check from XXXXXXXX).

                         o   In other cases, ESLHA took the inspectors HUD 11 forms and compared
                             them to the Certified Payrolls and the Davis Bacon Wage Decision. When
                             there was an indication that an employee was not making the appropriate
                             wage amount, ESLHA contacted the contractor for clarification. It was
                             confirmed that ESLHA was looking at the wrong amount due for the
                             classification, and in that particular case, the employees were paid the
                             correct wage amount. (See minutes 11 and 12.)

                         o   Without further information, ESLHA cannot determine that other certified
                             payrolls contradict the HUD 11 interviews.

                    Parking lots

                         o   Some payrolls were received from this contractor later than a week. There 
Comment 21                   was some discussion with regard to truck drivers. Inspectors sited the 
                             employees were not being paid Davis Bacon, after careful research our 
                             records 




                                                 35
Ref to OIG Evaluation                         Auditee Comments


                         o   indicated that Drivers are handled differently as a classification. Those
                             owners that drive their truck can pay themselves whatever they want. This
                             was pointed out during the review with OIG.

                    Exterior Lights All payrolls are present. Some payrolls were received from this
Comment 22           contractor later than a week.

                         o   Without further information, ESLHA cannot determine that the certified
                             payrolls contradict the HUD 11 interviews.

                    Termite abatement
Comment 23
                         o   This was a service contract that the HA did not apply Davis Bacon wages to
                             since the HA has the Exterminator Classification on the Maintenance Wage
                             Decision. Therefore certified payrolls would not be subject.

                    Relocation ESLHA did not require payroll records. It was a small purchase quote
Comment 24           for tenant relocation services.

                    Fire Panel Replacement

Comment 25               o   ESLHA has determined that proper wages were paid on this contract. The
                             sub contractor who conducted the fire panel testing was not required to pay
                             the same wages as the contracted electricians.

                         o   It is unclear whether the certified payrolls are incorrect or if the Inspection
                             reports are incorrect.

                         o   Some payrolls may have arrived later than a week.

Comment 26          Sewer Cleaning Employee was classified as laborer and paid laborer wage
                     according to the Davis Bacon Wage Rate for this project.




                                                 36
Ref to OIG Evaluation                              Auditee Comments


                         Mold Remediation Payroll number 1 showed the contractors were paying employees
Comment 27                below the Davis Bacon Wage rate. ESLHA contacted the contractor who agreed to
                          pay the employees the difference. They submitted a revised payroll number 1
                          showing the difference paid. (See attached)

                 Finding 4

                 The Authority paid for recovery act contracts prior to receiving HUD approval to obligate or
                 expend the funds

                 Specifically:

                         The Authority entered into 4 recovery act contracts worth more than $400,000 in late
                          2009 and early 2011.

                 Managements Response:

                 The Authority was not aware of such obligation submission requirement (OSAR) until
Comment 28 December 11, 2009 in which this is the date that the three (3) contracts were submitted for
                 approval. The fact remains that the Authority did comply with each requirement.

                         The Authority paid the contractors $169,433 prior to receiving HUD approval to
                          obligate or expend the funds

                 Managements Rresponse:

                 The Authority had these work items in the budget that was approved by HUD. The Authority
                 followed PIH notice 2009-12 under section VI. “That PHA’s can utilize projects that are
                 already underway, or are included in the Five- year Capital Fund Action Plan”.

                 Furthermore, each pay application was submitted to HUD for payment, which could be
                 understood as approval.

                        The Authority used ARRA Capital funds to reimburse $825 in tenants moving
                         expenses without HUD approval.
                 Managements Response:
                 The Authority accepts OIG’s recommendation and understands that the $825 in tenant moving
                 expenses without HUD approval.




                                                      37
Ref to OIG Evaluation                              Auditee Comments


                 Finding 5:

                 The Authority Improperly Drew Down All of Its Administrative Fees

                 The Authority drew down all of its administrative fees totaling $434,883, when it was only
                 entitled to draw down a total of $302,561. This condition occurred because its staff
                 misunderstood the requirements. As a result, the Authority overdrew its administrative fees by
                 $132,322 without the required support and possibly received administrative fees to which it
                 was not entitled.

                 Management Response

                 Management did not rely solely on PIH notice 2010-34 for guidance , PIH notices 2009-12
Comment 29 and 2011-4 were also used for guidance on the restrictions on use of funds for BLI
                 1410(Administration).

                        PIH Notice 2009-12, 2010-34 and 2011-4 in parts states exactly the same. “All
                         expenditures from Account 1410(Administration) are limited to 10 percent of the
                         total grant”. This is understood. PIH notice 2010-34 requirements did not lead staff
                         to believe draws could be based on actual administrative expenses incurred as well as
                         10 percent of each expenditure reimbursement. As stated above the exact language
                         giving guidance for BLI 1410(Administration) appears in all notices. However,
                         language does not appear in any of the notices as identified above by OIG auditor.
                         “PIH Notice 2011-04 allows the Authority to draw up to 10% of each contractor
                         payment for the administration of the Recovery Act grant or actual administrative
                         expenses already incurred.”

                 Restriction on Use of Funds:

                 PIH NOTICES 2009-12 and 2011-4

                 “All expenditures from account 1410 (Administration) are limited to 10 percent of the total
                 grant. A PHA may draw up to 10 percent of each expenditure reimbursement for
                 administration of the Recovery Act grant. Or with Field Office approval, a PHA may draw
                 beyond 10 percent of the expenditure if the PHA demonstrates that it has already incurred the
                 administrative expense.




                                                      38
Ref to OIG Evaluation                          Auditee Comments


             Restriction on Use of Funds:

             PIH Notice 2010-34

             “All expenditures from account 1410 (Administration) are limited to 10 percent of the total
             grant. A PHA may draw up to 11 percent of each expenditure reimbursement for
             administration of the Recovery Act grant. With Field Office approval, a PHA may draw
             beyond 11 percent of the expenditure if the PHA demonstrates that it has already incurred the
             administrative expense. Again, the total amount drawn down for administration is capped at
             10 percent of the grant.

             Effect:
             Administrative expenses was incurred in the amount of $154,972.48 and drawn based on
             supporting documentation of the expense. In addition $279,910.52 was drawn based on the
             amount to contractors. The Combined total of both of the draws do not exceed 10% of the
             grant. 10 percent of the total grant have not been exceeded nor was ESLHA BLI 1410 amount
             over expended.

             Recommendations:

             Supporting documentation for the incurred administrative expenses was presented and
             approved prior to the release of funds requested through the draws. Management believes that
             it is in compliance with HUD guidelines for BLI 1410 Administration and should not be sited
             for non –compliance resulting in repayment of funds.

             Finding 6

             The Authority Reported Incomplete and Inconsistent Information on the Number of Jobs
             Created and the Amounts Expended on Recovery Act Contracts

             The Authority reported incomplete and inconsistent information on the number of jobs created
             and the amounts expended on Recovery Act contracts. This deficiency occurred because the
             Authority was not aware of all requirements. As a result, the public did not have access to
             accurate grant information related to the Authority’s expenditures of Recovery Act capital
             funds, and its use of Recovery Act capital funds was not transparent. The Authority reported
             incomplete and inconsistent information on the number of jobs created and the amounts
             expended on Recovery Act contracts. According to the Recovery Act reporting requirements
             in 2 CFR Part 176 and section1512© of the Recovery Act, Recovery Act grant recipients are
             required to report the following information in FederalReporting.gov:




                                                  39
Ref to OIG Evaluation                           Auditee Comments


                     Amount of Recovery Act grant award,
                     Project information for use of the grant funds,
                     Number of jobs created or retained with the Recovery Act grant,
                     Grant funds invoiced and received,
                     Expenditure amounts,
                     Listing of vendors receiving Recovery Act funds, and
                     Vendor transactions and payments.

             Jobs Inaccurately Reported

             The Authority did not accurately report the number of jobs created or retained. It did not use
             staff hours to calculate full time job equivalents but based them on the number of workers
             employed. The Recovery Act requires full-time-equivalent jobs to be calculated using staff
             hours worked per quarter. Additionally, the Authority did not report jobs created by its
             contractors or force account labor. In its Section 3 reporting to HUD for 2010, it listed 15 jobs
             created but did not list more than three jobs created in any of the quarterly submissions to
             FederalReporting.gov. It also reported to FederalReporting.gov that the only jobs created were
             those of a contract administrator, construction inspector, and financial analyst, while it
             reported professional, office and clerical worker, construction worker, inspector, union
             carpenter, and laborer jobs created in its Section 3 report to HUD.

             Vendor Expenditures Improperly Reported

             The Authority did not properly report on the expenditures made to each of its vendors. It
             reported on the total amount awarded to each vendor but did not report on the disbursement
             progress of each vendor. Through the first quarter of 2010, the Authority reported $0
             disbursed to its vendors. From the second quarter of 2010 until the second quarter of 2011, the
             Authority reported that it disbursed the full contract amount to each of its vendors.

             Funds Received Improperly Reported

             The Authority did not accurately report the total amount of Recovery Act funds received. It
             did not properly report the amount of funds received for two quarters in 2010. The following
             table lists the amounts received as reported in FederalReporting.gov, the actual amounts
             received, and the difference between the two numbers.

             Recovery Act capital funds received Ending date for reporting Period Reported amount
             received Actual amount received Difference

             9/30/2009 $0 $0 $0
             12/31/2009 $0 $0 $0
             3/31/2010 $0 $0 $0
             6/30/2010 $574,216 $574,216 $0




                                                   40
Ref to OIG Evaluation                           Auditee Comments


             9/30/2010 $4,948,702 $1,213,909 $3,734,793
             12/31/2010 $4,948,702 $2,607,441 $2,341,261
             3/31/2011 $3,025,008 $3,025,008 $0
             6/30/2011 $3,517,755 $3,517,755 $0

             The Authority’s staff members did not realize that they were required to report the jobs created
             by the contractors as well as those created by employing force account labor. In addition, they
             were not aware that they were required to use staff hours to calculate full-time job equivalents.
             Once the quarterly reports were due, the employee tasked with reporting Recovery Act
             information requested information from different departments within the Authority and
             reported the information as she received it. In addition, this employee did not know how to
             report Recovery act funds paid to contractors quarterly, as she used only Website interface of
             FederalReporting.gov and did not know how to upload the information into an Excel file. The
             public did not have access to accurate grant information related to the Authority’s expenditures
             of Recovery Act capital funds. In addition, the public did not have information pertaining to
             the projects and activities funded with:

             Loss of Transparency
             Staff Unaware of Requirements

             Recovery Act Grant funds. As a result, the Authority’s use of Recovery Act capital funds was
             not transparent.

             The Recovery Act required an unprecedented level of transparency, and the Authority failed to
             provide the public with reliable information.

             Its employees need to be trained so that they can report information accurately.

             We recommend that the Deputy Assistant Secretary for Field Operations.

             6A. Require the Authority to correct the amounts reported in FederalReporting.gov and verify
             the Authority’s data entries to ensure that they meet Recovery Act reporting requirements.

             6B. Assist the Authority in receiving training on how to accurately report required Recovery
             Act grant information in FederalReporting.gov.

             Condition:

             The Authority reported incomplete and inconsistent information on the number of jobs created
             and the amounts expended on Recovery Act contracts.




                                                   41
Ref to OIG Evaluation                             Auditee Comments


             Specifically:

                      1.      It did not accurately report the number of jobs created or retained.
                      2.     It did not properly report on the expenditures made to each of its vendors.
                      3.     It did not accurately report the total amount of recovery act funds expended or
                             received.

             Management Response:

Comment 30            1.      Management do not concur with this finding, the HA reported jobs by quarter
                             using the job calculator. As of 03/31/2011, all jobs created for that quarter was
                             accurate to the best of our knowledge.

             Conclusion:

             The HA is confident it has addressed all the issues outlined in the Draft Audit. The HA will
             implement a process to provide electronic files to any/all reviews that request to do audits in
             the future.

             We request that you accept the enclosed information along with the supporting documentation
             to serve as evident to clear all the aforementioned findings.

             Sincerely,



             Elizabeth Tolliver
             Executive Director

             Attachments




                                                     42
                         OIG Evaluation of Auditee Comments

Comment 1   We never stated that independent cost estimates were not performed for any of the
            contracts. Our position is that these estimates were not properly performed. As
            the Authority has noted from HUD’s Handbook 7460.8 Page 3-2 paragraph D,
            “the ICE must be prepared prior to the solicitation of offers.” This was not
            always the case.

Comment 2   The Door replacement contract was solicited on October 19, 2009, based on the
            “Solicitation, Offer and Award” document the Authority issued and the bids were
            opened on November 30, 2009. Since the cost estimate was prepared on
            December 16, 2009, after the bids were received, it did not meet the requirement
            of HUD Handbook 7460.8 to be prepared before bids were received.

Comment 3   The Authority provided a document titled "Independent Cost Estimate" and stated
            that the basis of the analysis was the price paid for the most recent contract and
            factored in inflation or changed market conditions. It stated that the estimated
            service cost was $500,000, but it did not attach any documents to support the
            $500,000 figure or list the price paid for the most recent contract.

Comment 4   The Authority did perform a cost estimate for the fire panel contract but did not
            provide supporting documents for the cost estimates of $1,183,957 or the alternate
            of $1,062,407, as required by HUD handbook 7460.8 Rev-2 chapter 3.2. The cost
            estimate did not provide a detailed breakdown of the anticipated costs in terms of
            materials to be purchased or labor.

Comment 5   The independent cost estimate was conducted almost a month after the bid
            solicitation was advertised. It was performed on January 7, 2011 while the
            solicitation was first advertised on December 8, 2010. Since the cost estimate
            was prepared after the solicitation, it did not meet the requirement of HUD
            Handbook 7460.8. In addition, the supporting document provided by the
            Authority lists the date of the independent cost estimate as January 7, 2011, not
            October 28, 2010 or any other date.

Comment 6   The Authority conducted an Independent Cost Estimate based on a quote
            provided by the successful bidder; therefore, the cost estimate was not
            independent. In addition, the cost estimate was prepared on December 17, 2009,
            while the public solicitation was issued on October 13, 2009. Therefore, the
            Authority issued the public solicitation for the contract before conducting the cost
            estimate contrary to the requirements HUD Handbook 7460.8.

Comment 7   For two of the five contracts cited in our finding for having improper independent
            cost estimates, the independent cost estimates were performed after the Authority
            received bids. In the case of the exterior doors, we note that the independent cost
            estimate was performed 16 days after the bids were received and opened, not 26
            days. The original bid received date was extended by 10 days.



                                             43
Comment 8     The Authority did not always perform cost analyses before awarding Recovery
              Act contracts. For example, in the case of the parking lot contract, there was a
              single bidder and HUD Handbook 7460.8 Rev-2, Chapter 10.3A requires a cost
              analysis when there is inadequate competition. In this case, this was not
              performed. In addition, HUD Handbook 7460.8 Rev-2, Chapter 10.3A states that
              “for every procurement, PHAs are required to perform a cost or price analysis to
              determine that the price is reasonable.”

Comment 9     The Authority requested references and contact information from all companies
              interested in obtaining contracts. At a minimum, it should have checked out the
              references to be in compliance with HUD’s requirements or document its reasons
              for not verifying the references. In some instances, the Authority did follow-up
              with references and documented such in the procurement files. Completion of
              this process will help the Authority to determine if the service levels of the
              bidders have declined. The contract amounts, where only this error was present,
              are not included in the questioned costs.

Comment 10 We correctly cited in our report the regulations at 24 CFR 85.35 and not 24 CFR
           85.36.

Comment 11 While the Authority has a detailed listing of HUD’s limited denial of participation
           list dated February 11, 2010, eight contracts were awarded before this date and
           the Authority did not provide evidence that all the contractors were checked
           against the list. The only one cited in our report that was awarded after February
           11, 2010 where the list was applicable was not missing the limited denial of
           participation check. The contract amounts, where only this error was present, are
           not included in the questioned costs.

Comment 12 At least 10 percent of covered contracts are required to go to Section 3 businesses
           and the Authority could not document section 3 plans that showed how the
           contractors were going to meet this requirement. Two of the contracts were
           missing Section 3 plans. In addition, the Section 3 plan for the Villa Griffin
           development was deficient. Specifically, while it was required to show at least 10
           percent of its construction contracts totaling $2,977,000 going to Section 3
           businesses, it only listed $27,598 (0.9 percent) to be awarded to Section 3
           businesses. The Authority acknowledges that this plan was deficient and it is
           working to resolve the issue.

Comment 13 The Villa Griffin general contractor did not meet the minority participation
           requirement of 25 percent because the carpentry subcontractor was a related entity
           as it is a joint venture between the general contractor and another company.
           Therefore the general contractor would end up doing some of the work assigned
           to the subcontractor. In addition, the list of workers provided by the general
           contractor and the carpentry subcontractor were identical.




                                              44
Comment 14 We reviewed all the supporting documents and noted that they did not meet all of
           the requirements. Our analysis of the supporting documents provided by the
           Authority in its response to finding 1 can be found in our comments 1 through 13.

Comment 15 See comment 12

Comment 16 The Architectural Services contract was awarded with a provision that it was not
           to exceed $340,000. As of June 27, 2011, the Authority had exceeded this
           amount by $20,902 without an approved change order. We will amend the report
           to reflect this fact.

Comment 17 The Authority processed $80,927.50 worth of change orders for the landscaping 1
           Contract, $94,750 for landscaping 2, $42,053 for parking lots (5 change orders)
           and $171.61 for the Mini Blinds. These change order amounts are for added work
           and do not include any deletions. The Authority did not always distinguish
           between Recovery Act and non-Recovery Act sources of funding when
           processing change orders. Therefore, the Authority needs to do a cost analysis for
           each change order to determine if the change orders were reasonable, in order to
           show that the Recovery Act contributions were also reasonable.

Comment 18 For the landscaping 1 contract, the Authority did not obtain all of the payroll
           records. Some of the reports were missing and those that were present did not
           always contain all the employees that worked during the reporting period. There
           were no payroll records documented after May 3, 2011 even though there was
           work performed until July 20, 2011, according to the field inspection reports. In
           addition, the contractor provided payroll records for the work performed between
           December 22, 2010 and March 1, 2011 on March 3, 2011, which was late. For
           the landscaping 2 contract, the Authority did not obtain all of the payroll records.
           It did not document payroll records between June 8, 2010 and June 29, 2011.

Comment 19 For the boiler and hot water contract, the Authority did not obtain all of the
           payroll records of one of the subcontractors that worked on the contract. HUD-11
           forms dated September 20, 2010 indicated that there were two employees of the
           subcontractor present on site. However, there were no payroll records provided
           by the subcontractor for that date.

Comment 20 For the Villa Griffin project, we had no issues with the payroll records of the
           general contractor. The payroll records of some of the subcontractors were not
           accurate. In one particular case, the payroll records did not match with the HUD-
           11 interview forms from August 3, 2011. Specifically, workers that were
           interviewed for HUD-11 forms on that date were not listed on the payroll records
           for the same date.

Comment 21 For the parking lot contract, the Authority did not obtain any of the payroll
           records of the subcontractors that worked on the contract. In addition, it never
           offered any evidence that the truck drivers were owner-operators and therefore



                                              45
              not subject to Davis-Bacon wages. Finally, the Authority did not document
              complete certified payroll reports from the general contractor. Some of the
              reports were missing and those that were present did not always contain all the
              employees that were shown on the HUD-11 interview forms for March 30, 2010
              and other days. Specifically, workers that were interviewed for HUD-11 forms on
              that date were not listed on the payroll records for the same date. Additionally,
              the general contractor should have provided the payroll records until September
              17, 2010 when the certificate of substantial completion was issued, but only
              provided records through July 27, 2010 when the work was still in progress.

Comment 22 For the exterior lights contract, the Authority did not obtain all of the payroll
           records of the general contractor. There were no payroll records documented after
           January, 2011 even though there was some work performed until June 2011
           according to the field inspection reports. Additionally, the Authority did not
           document any of the payrolls of the subcontractor.

Comment 23 We removed the deficiency for the missing certified payrolls for this contract.

Comment 24 OMB Memorandum M-09-10 states that Recovery Act funds are subject to the
           requirements of the Davis-Bacon Act and Service Contract Act. Therefore, the
           Authority was required to pay prevailing wages for this contract.

Comment 25 For the fire panel contract, the Authority did not obtain all of the payroll records
           of the general contractor. There were no payroll records documented after April
           2, 2011 even though there was some work performed on April 15, 2011,
           according to the field inspection reports. Additionally, contractors and
           subcontractors must pay their laborers and mechanics employed under the
           contract no less than the locally prevailing wages and fringe benefits for
           corresponding work on similar projects in the area. The Authority did not state
           why the subcontractor was not required to pay the same wages for electricians as
           the general contractor.

Comment 26 For the sewer cleaning contract, the contractor’s employees were misclassified as
           laborers rather than power equipment operators. The Authority advertised for
           bids from contractors to clean sewer reaches using high velocity hydro cleaning,
           mechanically powered, or hydraulically propelled sewer-cleaning equipment.
           Since the contractor is using power equipment to clean out the sewers, the
           employees should be classified as power equipment operators and not laborers.

Comment 27 For the mold remediation contract, the Authority did not obtain all of the payroll
           records of the general contractor. There were no payroll records documented
           after March 12, 2011 even though there was some work performed until March
           16, 2011, according to the field inspection reports. Additionally, even though the
           contractor corrected the pay rate on the certified records, one of its employees
           stated that he had not been receiving any fringe benefits in violation of the Davis-
           Bacon Act. The Authority did not document evidence that all of the workers
           received fringe benefits.


                                               46
Comment 28 We amended the report based on the documentation provided as we agree that the
           Authority was notified about the OSAR requirements on December 11, 2009.

Comment 29 PIH Notice 2011-4 says "A PHA may draw up to 10 percent of each expenditure
           reimbursement for administration of the Recovery Act Grant. Or with Field Office
           approval, a PHA may draw beyond 10 percent of the expenditure if the PHA
           demonstrates that it has already incurred the administrative expense". The
           Authority did not demonstrate that it had already incurred $434,883 or more in
           administrative expenses when it drew down the funds and had not drawn enough
           expenditure reimbursements to receive $434,883 in administrative fees.

Comment 30 The Authority did not report any of the jobs created by its contractors or force
           account labor during our audit period, therefore it did not accurately report the
           jobs created.




                                              47
